 

IN THE
Supreme Court of the United States

CEDAR POINT NURSERY, ET AL.,
Petitioners,
Vv.

VICTORIA HASSID, IN HER OFFICIAL CAPACITY AS CHAIR OF THE AGRICULTURAL LABOR
RELATIONS BOARD, ET AL.,
Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

CERTIFICATE OF SERVICE

Undersigned counsel for the Service Employees International Union, a
member of the Bar of this Court, certifies that all parties required to be served were
caused to be served with three copies per Rule 29.3 of the foregoing BRIEF OF THE
SERVICE EMPLOYEES INTERNATIONAL UNION AS AMICUS CURIAE IN
SUPPORT OF RESPONDENTS via UPS Next Day Service and one PDF copy via e-
mail service, this 12th day of February, 2021, to the following addresses listed below:

Joshua Paul Thompson
(Counsel of Record)

Wencong Fa

Pacific Legal Foundation

930 G Street

Sacramento, CA 95814

(916) 419-7111

jthompson@pacificlegal.org

wia@pacificlegal.org

Counsel for Petitioners

 
Joshua Patashnik

(Counsel of Record)
California Department of Justice
455 Golden Gate Ave., Suite 11000
San Francisco, CA 94102
(415) 510-3896
josh.patashnik@doj.ca.gov

Counsel for Respondents

Executed on February 12, 2021.

a by

LEON DAYAN

(Counsel of Record)
BREDHOFF & KAISER, P.L.L.C.
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
ldayan@bredhoff.com

Counsel for Amicus Curiae
Service Employees International Union
